OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
USAID/MEXICO’S RULE OF LAW
AND HUMAN RIGHTS PROGRAM
AUDIT REPORT NO. 1-523-12-007-P
September 7, 2012




SAN SALVADOR, EL SALVADOR

Office of Inspector General


September 7, 2012

MEMORANDUM

TO:     	        USAID/Mexico Mission Director, Tom Delaney

FROM: 	          Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	        Follow-Up Audit of USAID/Mexico’s Rule of Law and Human Rights Program
                 (Report No. 1-523-12-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and included them in their entirety in
Appendix II of this report.

The final report includes three recommendations to help the mission improve how it tracks and
records training for the Mexico Rule of Law and Human Rights Program. Based on your written
comments in response to the draft report, final action has been taken on Recommendations 1
and 3, and a management decision has been reached on Recommendation 2. Please provide
the Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
with evidence of final action to close the open recommendation.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................... 1 


Audit Findings ............................................................................................................................. 4 


Evaluation of Management Comments ..................................................................................... 9 


Appendix I—Scope and Methodology .................................................................................... 10 


Appendix II—Management Comments ................................................................................... 11 





Abbreviations

The following abbreviations appear in this report:

FY              F
                	 iscal Year
JACS 	          Justice and Citizen Security Office
MSD 	           Management Sciences for Development Inc.
MSI	            Management Systems International
PMP 	           performance management plan
RIG 	           Regional Inspector General
UNHCHR          United Nations High Commissioner for Human Rights
TraiNet 	       Training Results and Information Network (also referred to as USAID’s Training
                Network)
SUMMARY OF RESULTS 

The U.S. and Mexican Governments joined forces in the fall of 2007 to combat drug trafficking,
gangs, and organized crime in Mexico and Central America. This collaboration formed the
foundation of the Merida Initiative, a 3-year program of the U.S. Government that funded
“technical advice and training to strengthen the institutions of justice—vetting for the new police
force, case management software to track investigations through the system, new offices of
citizen complaints and professional responsibility, and witness protection programs to Mexico.”1

Since funding for the initiative technically ended in FY 2010, President Barack Obama and his
administration worked with Mexico to develop a strategy based on four pillars to continue
fighting crime. According to USAID/Mexico’s Web site, those pillars are:

1.   Disrupt capacity of organized crime to operate.
2.   Institutionalize capacity to sustain the rule of law.
3.   Create a 21st-century border structure.
4.   Build strong and resilient communities.

For its part, the Mexican Government introduced constitutional and legislative changes in 2008
aimed at reforming the country’s police, prosecutors, public defenders, courts, and
penitentiaries at the state and federal levels by May 2016. To help Mexico bring these reforms
about, USAID/Mexico designed the Rule of Law Program2 to (1) support implementation of the
criminal justice reforms at the state and federal levels and (2) strengthen civil society
organizations’ promotion and oversight of human rights.

The program was implemented by Management Systems International (MSI), Management
Sciences for Development Inc. (MSD), and the United Nations High Commissioner for Human
Rights (UNHCHR).

                    Award Information as of March 31, 2012 ($) (Not Audited)

          Awardee      Start and End Dates     Award Amount      Obligations    Expenditures*
        MSI               7/1/09-12/31/12         44,086,111     42,528,736       28,117,313
        MSD               9/30/07-3/31/10         14,993,100     14,465,544       14,125,915
        UNHCHR            8/3/09-12/31/12          1,250,000      1,250,000        1,000,000
        Total                                     60,329,211     58,244,280       43,243,228
       * Expenditures include disbursements and accruals, which USAID records quarterly.

USAID plans to extend the MSI award through a partial extension of an 18-month option. Since
MSI is the most significant implementer still active in the program in terms of funding, our follow-
up efforts focused on that organization. MSI’s activities focused mainly on rule of law activities.

The Regional Inspector General (RIG)/San Salvador audited the program (“Audit of
USAID/Mexico’s Rule of Law and Human Rights Program,” Report No. 1-523-11-001-P,
1
     “The Merida Initiative,” June 23, 2009, U.S. Department of State Fact Sheet
     (http://www.state.gov/j/inl/rls/fs/122397.htm).
2
     While a previous audit referred to this as the Rule of Law and Human Rights Program, this audit
     focused primarily on rule of law activities; therefore, the program name reflects that focus.

                                                                                                  1
January 12, 2011) during FY 2010.3 The audit concluded that the related activities had limited
success because the mission did not deliver technical advisory services to reach maximum
efficiency, effectiveness, and sustainability, mainly because the program lacked focus.

As part of the FY 2012 audit plan, RIG/San Salvador performed this follow-up audit to determine
whether the actions the mission took in response to the recommendations in the previous audit
report were effective. We recommended that USAID/Mexico:

1. 	 Exert technical control over the contract and require Management Systems International to
     develop an implementation strategy that outlines how it intends to identify the sites where it
     intends to work and the methodologies it intends to deploy for identifying the training needs
     and execution of training.

2. 	 Conduct a portfolio review to examine the strategic and operational issues and determine
     whether USAID-supported activities are supporting the implementation of criminal justice
     reforms at the federal and state levels and strengthening civil society organizations’
     promotion and oversight of human rights.

3. 	 Either recompete the contract for technical services or prepare the appropriate justification
     required by the Competition in Contracting Act of 1984 for other than full and open
     competition.

4. 	Revise its current performance indicators and associated targets for the Rule of Law
    Program so that they will assess progress toward the program’s overall goals and
    objectives.

5. 	 Update its performance management plan for the Rule of Law Program.

6. 	 Strengthen its internal controls so that technical officers implement their delegated duties in
     accordance with USAID policy.

7. 	 Establish procedures for systematically following up with training participants to assess the
     impact and effectiveness of training.

8. 	Institute procedures to consistently collect and input training data into TraiNet, USAID’s
    training network.

The follow-up audit determined that the actions USAID/Mexico took in response to the
recommendations in the previous audit report were largely effective. The mission’s Justice and
Citizen Security (JACS)4 Office made significant changes to MSI’s statement of work and the
MSI team’s internal organization structure, and to the mission’s staff to support the Rule of Law
Program. As a result, USAID/Mexico has made commendable progress toward creating a
program that fully reflects the Agency’s goals for program impact and sustainability. With
USAID/Mexico’s and MSI’s collaboration, the program has achieved a strategic focus through
narrowing of the geographic scope based on potential for success and political will to implement
the reforms. Mexican officials confirmed that communications and relationships with USAID and
MSI, which had previously deteriorated, have improved.


3
    The fieldwork was done from August 23 to September 10, 2010.
4
    JACS previously was called the Mérida Initiative Office.

                                                                                                  2
Auditors saw evidence that the program had improved the capacity of beneficiary organizations.
For instance, MSI facilitated in the development of standard operating procedures for several
beneficiaries visited. MSI developed core skills and knowledge criteria for Mexican justice
operators adjusting its training to better prepare justice operators for their new roles.

In terms of the recommendations, RIG/San Salvador agreed that the mission had followed
USAID policy in awarding the task order and agreed to close Recommendation 3 without further
action required from the mission. USAID/Mexico’s actions were effective in addressing six of
the seven remaining recommendations. However, the follow-up audit identified areas for
additional improvement regarding the mission’s response to Recommendation 8, related to the
tracking and recording of training. Specifically, we recommend that USAID/Mexico’s JACS:

	 Direct MSl to implement a process to capture data and report only the number of people
   completing the training course who met the attendance criteria.

	 Implement a verification process to confirm that the information entered and reported by MSI
   in USAID’s TraiNet is accurate.

	 Determine and document, in conjunction with MSI, how the training database will be
   retained at the end of the program and what training information could be provided to state
   officials for their records.

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of USAID/Mexico’s management comments appears on page 9, and the mission’s
comments are in Appendix ll.




                                                                                             3
AUDIT FINDINGS 

The following paragraphs discuss the recommendations made in the original report, the
mission’s actions on those recommendations, and the audit team’s conclusion concerning the
effectiveness of those actions.

Original Recommendation 1. We recommended that USAID/Mexico exert technical control
over the contract and require Management Systems International to develop an implementation
strategy that outlines how it intends to identify the sites where it intends to work and the
methodologies it intends to deploy for identifying the training needs and execution of training.

In response, the mission reduced the geographic focus from 32 to 7 primary and 4 secondary
states.5 The criteria for their selection were based on each state’s political will for reform, level
of investment each state made in reform, level of federal investment in the state’s reform efforts,
and the likelihood that the program would succeed. USAID/Mexico realigned training to include
comprehensive training for fewer people. The training gave participants the skills they needed
as “justice operators”6 to perform in the reformed justice system. MSI provided its training
curricula to Mexican Government counterparts, and some of them incorporated the courses into
their own training curricula.

USAID/Mexico was instrumental in reorganizing the MSI team’s management structure by
requiring clear designations of responsibility that did not exist before. In addition, MSI added
technical staff and hired a new, highly qualified chief of party. USAID/Mexico also adjusted its
staff and created a rule of law team.

The mission focused on developing institutions’ capacity as part of and in conjunction with the
training. For instance, in the state of Baja California, MSI helped criminal investigators draft
their first set of standard operating procedures. The new guidelines defined the investigators’
duties and in the process improved their working relationships with prosecutors. As a result, the
crime unit selected to pilot the new procedures had a case resolution increase from 30 to 106
percent— resolving all current cases plus backlog cases.

We conclude that the mission’s actions to implement Recommendation 1 were effective.

Original Recommendation 2. We recommended that USAID/Mexico conduct a portfolio
review to examine the strategic and operational issues and determine whether USAID-
supported activities are supporting the implementation of criminal justice reforms at the federal
and state levels and strengthening civil society organizations’ promotion and oversight of human
rights.

In response to this recommendation, USAID/Mexico conducted a full review of JACS’s portfolio
in November 2011. Four months before, the mission updated its JACS performance
management plan (PMP) to recognize its responsibility for meeting complementary interagency

5
    Per Modification 5, USAID/Mexico prioritized assistance to states as either Tier I (primary) or Tier II (secondary).
    Tier I states were ones that demonstrate the greatest ability to benefit from the assistance, and Tier 2 states,
    which were not as advanced, receive more limited assistance than those in Tier I.
6
    “Justice operators” include judges, prosecutors, public defenders, police, and individuals working in alternative
    justice jobs, such as mediators or conciliators.


                                                                                                                      4
goals established under the Merida Initiative, and to revise the overall goals and programmatic
focus to reflect JACS’ role in the four-pillar strategy. USAID/Mexico also commissioned a study
of the impact that the justice reforms had in five states.

Since the prior audit, USAID/Mexico has improved its coordination with the other U.S.
institutions implementing the initiative, and that has resulted in activities that are more
complementary. The mission took the lead working at the state level, and the U.S. Department
of Justice took the lead at the federal level.

While USAID has taken the lead on state-level activities, according to MSI’s work plan the
program works with federal entities like the Mexican legislature, which gets technical assistance
in reforming criminal justice laws, and SETEC,7 which coordinates criminal justice reforms at the
federal and state levels.

The auditors observed that program’s efforts at the state level had (1) promoted coordination
and cooperation among justice operators, (2) facilitated institutional capacity development, and
(3) promoted interdisciplinary planning among justice operators designed to increase
acceptance of the reforms as well as provide a smooth transition to the reformed justice system.
In addition, the sharing of best practices among states helped them improve their reform efforts.

USAID/Mexico also shifted its work with civil society organizations from crime prevention to
developing their capacity, educating them about justice reforms, and getting them involved in
advocacy and as watchdogs. MSI helped form the Observatory, a group of people from NGOs,
media, academia, and other organizations that provides oversight of criminal justice reform in
the state of Nuevo Leon. MSI sponsors annual forums on reform and finds experts to speak at
the events. The forums allow states to share information on the progress of their reforms.

We conclude that the mission’s actions to implement Recommendation 2 were effective.

Original Recommendation 4. We recommended that USAID/Mexico revise its current
performance indicators and associated targets for the Rule of Law Program so that they will
assess progress toward the program’s overall goals and objectives.

As a result of the prior audit, USAID/Mexico modified the contract (modification No. 5) and
substantially redesigned the program. The performance indicators were also revised;
USAID/Mexico and MSI reduced the number of indicators from 44 to 16.

Overall, the audit team found that the indicators directly address the program’s objectives as
outlined in the revised results framework. The team also concluded that the indicators are
adequate for assessing progress toward the program’s stated goal of comprehensive criminal
justice reform at state and federal levels. We conclude that the mission’s actions to implement
Recommendation 4 were effective.

Original Recommendation 5. We recommended that USAID/Mexico update its performance
management plan for the Rule of Law Program.




7
    SETEC is the Technical Secretariat of the Criminal Justice Implementation Commission (Secretaría
    Técnica del Consejo de Coordinación para la Implementación del Sistema de Justicia Penal). 

                                                                                                  5
In July 2011 USAID/Mexico revised the overall goal and programmatic focus of the JACS PMP
to reflect the four-pillar strategy, adding the fourth pillar’s objective making the linkage between
strengthening the rule of law and building strong and resilient communities.

USAID/Mexico also revised MSI’s PMP, as discussed in Recommendation 4. The mission
incorporated a new results framework that reflected the contract modification requirements. It
then incorporated more revisions to the PMP through the FY 2012 MSI work plan. Both the
results framework and PMP accurately reflect the program’s current overarching goal, per the
contract modification, of “comprehensive criminal justice reform at the state and federal level.”
We conclude that the mission’s actions to implement Recommendation 5 were effective.

Original Recommendation 6. We recommended that USAID/Mexico strengthen its internal
controls so that technical officers implement their delegated duties in accordance with USAID
policy.

USAID/Mexico has instituted internal controls in accordance with USAID policy. Since the prior
audit, JACS created a rule of law team and assigned a monitoring and evaluation specialist to
provide better oversight of the program and its achievements.

In response to conditions identified in the prior report, the mission made several improvements.
The audit found that the contracting officer’s representative’s files were well maintained and
included documentation of weekly meetings, trip reports, correspondence, data quality
assessments, award documents, and reviews of financial information in both paper and
electronic files. USAID/Mexico added more reporting requirements for MSI through modification
No. 5, including weekly and monthly reporting as well as submission of a monthly calendar to
highlight planned events. The JACS director had members of the MSI team revise their
vouchers so that they listed how much was spent by Merida objectives and by activity to track
how funds were used. We conclude that the mission’s actions to implement Recommendation 6
were effective.

Original Recommendation 7. We recommended that USAID/Mexico establish procedures for
systematically following up with training participants to assess the impact and effectiveness of
training.

The mission amended the MSI contract to require it to develop a formal system for evaluating
the training’s effectiveness. MSI took several steps to implement this new requirement. First,
all training sessions now have pre- and post-training tests to measure knowledge acquired
during training courses. MSI enhanced its database to track the test results and to analyze
each trainee’s increase in knowledge afterward.

Second, MSI started conducting a survey of the training’s impact in the states of Baja California
and Oaxaca. The survey includes 150 USAID trainees/beneficiaries, a control group, and
follow-up focus group discussions to obtain qualitative data. Participants are trainees who have
worked for at least 6 months in the reformed justice system. MSI drafted a work plan, dated
February 16, 2012, which provides the training evaluation methodology used to conduct the
survey. We conclude that the mission’s actions to implement Recommendation 7 were
effective.

Original Recommendation 8. We recommended that USAID/Mexico institute procedures to
consistently collect and input training data into the USAID training network.


                                                                                                  6
In response to the recommendation, the mission provided MSI guidance on using TraiNet,
which MSI has used. MSI reviewed and updated the network to correct errors. MSI now enters
training data into TraiNet each quarter, conducts weekly and quarterly quality control reviews,
and submits its complete training database to USAID quarterly.

USAID instructed MSI to adjust its reporting to include only the number of people trained per
course, not per module (or component), because a course can contain many modules. MSI’s
training database is very comprehensive for collecting pertinent training data. In fact, the
Department of State’s Narcotics Affairs Section was so impressed with the database that it is
proposing that all agencies implementing the Merida Initiative enter their training data into the
database.

Despite these achievements, the audit found that there were still some improvements needed to
ensure that training data are accurate and meaningful.

Definition of Trained Person. The prior audit noted that inconsistencies in training data
reported occurred because the mission and MSI did not have a consistent definition for what
constitutes training.

Although they subsequently defined training, they did not fully define a person who has been
trained. According to Automated Directive System 253.3.7.5, “Participant Training for Capacity
Development,” a participant’s progress must include rigorous monitoring requirements, which at
a minimum must include assurances that the participant is attending scheduled activities or
sessions of a technical program regularly.

While MSI did set attendance levels for individual courses, it did not enforce them, nor did the
reporting correctly reflect this. Training records showed that some participants who attended
less than 60 percent of a course (some as low as 25 percent) were counted as having
completed it.

MSI officials said all courses have attendance criteria of 80 percent or more; however, these
applied to courses in which participants received a diploma or certificate and credit upon
completion. While the remaining MSI training courses utilized attendance sheets, some
participants did not meet the attendance criteria. This stems from the fact that the MIS
database did not capture actual attendance and credited the participant as attending the entire
course. Applying the criteria to all courses to track people who complete them would give
USAID and Mexico assurance that these individuals are trained in accordance with the Rule of
Law Program’s goals.

Data Verification in TraiNet. The prior audit noted that USAID/Mexico had reported in TraiNet
approximately 4,500 fewer people trained than MSI had in the same period. To help resolve
future discrepancies, MSI now enters the training data into TraiNet every quarter, and a mission
monitoring and evaluation specialist checks the data.

Despite these measures, the audit found errors in the information reported in TraiNet. When
USAID/Mexico was setting up the system, two identical line items for the program were added
by mistake, and line items cannot be removed. The mission and MSI agreed to use only the
second line item to report the training data. However, the audit test of first-quarter FY 2012
TraiNet data found that some data were entered erroneously in the first line item, which meant
that about 7 percent of the training data were underreported.


                                                                                                7
The USAID/Mexico’s monitoring and evaluation specialist reviewed the data in TraiNet to
identify any duplicate trainings or other information that appeared erroneous. However, she did
not compare those data with MSI’s quarterly report or other supporting documentation. Had she
done so, she would have found the understatement and the data entry error. Adding a simple
verification procedure could help confirm that data in TraiNet accurately reflect program
achievements.

Database Retention Plan. Federal Acquisition Regulation (FAR) 52.245-1, “Government
Property,” states that the government has the option to take over any property it has a right to
before or after a contract has ended. The MSI contract states that USAID owns all the reports
generated and data collected during this program and that MSI must provide a demobilization
plan 90 days before the contract ends.

MSI’s comprehensive database tracks and maintains all the training provided under the
contract. It contains detailed data on training courses and participants, including supporting
documentation that is not retained in TraiNet. The information in the database is valuable to
both USAID and the Government of Mexico because they do not have the data at their disposal.
Each Mexican state tracks and maintains training data differently, and in some cases, the state
officials do not maintain the list of training participants and courses provided by USAID. MSI
gives the contracting officer’s representative an updated spreadsheet of all the training
participants and courses conducted, but the supporting documentation is not submitted to
USAID.

When the program ends in December 2012, it is unclear what will happen to the training
database. USAID/Mexico and MSI have not made plans on how it will be retained. Since
USAID owns the training data collected by MSI and the information can be useful for future rule
of law programs, USAID/Mexico should make sure that it retains MSI’s database.

While significant data entry improvements have been made, to complement and enhance
actions taken on Recommendation 8 and confirm that all useful data are maintained, we make
the following recommendations.

   Recommendation 1. We recommend that USAID/Mexico’s Justice and Citizen Security
   Office issue a directive to Management Systems International to implement a process to
   capture data and report only the number of people completing the training course who
   met the attendance criteria.

   Recommendation 2. We recommend that USAID/Mexico’s Justice and Citizen Security
   Office implement a verification process to confirm that the information entered and
   reported by Management Systems International in USAID’s Training Results and
   Information Network is accurate.

   Recommendation 3. We recommend that USAID/Mexico Justice and Citizen Security
   Office work with Management Systems International to determine and document how
   the training database will be retained at the end of the program and what training
   information could be provided to state officials for their records.




                                                                                              8
EVALUATION OF MANAGEMENT
COMMENTS
Based on our evaluation of USAID/Mexico’s comments on our draft report, we have determined
that final action has been taken on Recommendations 1 and 3. In addition, a management
decision has been reached on Recommendation 2. Our evaluation of mission comments
appears below.

Recommendation 1. The mission agreed with the recommendation. It issued a technical
directive on August 13, instructing MSI to capture training data and only report individuals who
met the attendance criteria. USAID/Mexico provided documentation to support its assertions
and to show what actions MSI has taken. As a result, final action has been taken for this
recommendation.

Recommendation 2. The mission agreed with the recommendation. It is developing a protocol
that outlines the steps to take when verifying the accuracy of information that MSI enters in
TRAINET and reports quarterly and annually. Mission officials said the protocol will be
incorporated into the work objectives of program managers for the current and follow-on justice
sector reform portfolio and into those of JACS’s monitoring and evaluation specialist. The
mission anticipates this protocol to be in place by November 30, 2012. Based on the actions
taken and time frames identified, a management decision has been reached for this
recommendation.

Recommendation 3. The mission agreed with the recommendation and has taken steps to
obtain the database and the training needed to maintain it. In addition, mission officials said
they have approved MSI’s plan to provide training information to state officials for their records.
The mission provided supporting documentation for these assertions. As a result, final action
has been taken for this recommendation.




                                                                                                 9
                                                                                                Appendix I



SCOPE AND METHODOLOGY

Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of this follow-up audit is to determine whether actions taken by USAID/Mexico in
response to the recommendations of “Audit of USAID/Mexico’s Rule of Law and Human Rights
Program” (Audit Report No. 1-523-11-001-P) were effective.

In planning and performing the audit, we assessed the mission’s controls related to the
program. The management controls included reviews of USAID/Mexico’s December 2011
performance plan report, the FY 2011 annual self-assessment of management controls (which
the mission is required to perform to comply with the Federal Managers’ Financial Integrity Act),
data quality assessments, site visit reports, files from the contracting officer’s representative,
and portfolio reviews.

The audit covered program activities that occurred from the date the previous audit report came
out (January 12, 2011) through May 9, 2012. It reviewed MSI activities worth about
$20.5 million,8 about 64 percent of total billings through April 30, 2012.

The audit team conducted fieldwork in Mexico from April 23 through May 9, 2012, in Mexico City
and the states of Oaxaca, Nuevo Leon, Baja California, and Puebla. The audit scope was
limited to determining the actions taken and the effectiveness of those actions for seven of the
eight recommendations made in the previous audit report.

Methodology
To answer the audit objective, we reviewed pertinent documents from the mission and MSI
supporting the actions taken in response to the previous audit’s recommendations. In addition,
we verified actions taken and the effectiveness of those actions in response to the previous
recommendations through 38 interviews with officials from USAID/Mexico, the U.S.
Departments of State and Justice, MSI, a civil society organization, and the Mexican
Government at the federal and state level. We judgmentally selected a sample of 4 of
USAID/Mexico’s 11 focus states for conducting our follow-up interviews because these
represented a broad range of the kinds of assistance the program is providing and represented
various stages of implementation of criminal justice reforms. We also selected a judgmental
sample of MSI training records to test and verify that the information reported was accurate and
reliable.




8
    This amount is an estimate from MSI, based on the list of activities that the auditors reviewed.

                                                                                                        10
                                                                                       Appendix II



MANAGEMENT COMMENTS 


                                                                                  August 22, 2012

ACTION MEMORANDUM


TO: 	                  Jon Chasson, Regional Inspector General/San Salvador /s/

FROM: 	                Thomas R. Delaney, Mission Director /s/

SUBJECT: 	             Follow-up Audit of USAID/Mexico’s Rule of Law and Human Rights
                       Program (Report No. 1-523-12-00X-P)


Thank you for the opportunity to respond to the Follow-up Audit of the USAID/Mexico’s Rule
of Law and Human Rights Program (Report No. 1-523-12-00X-P). This memorandum transmits
USAID/Mexico’s comments and management decisions, as described below.

USAID/Mexico concurs with the recommendations in this report and has already identified steps
to implement them. I am confident that implementation of the recommended actions will result
in further effectiveness of the Mission’s work in the area of Rule of Law and Human Rights.

Recommendation 1: We recommend that USAID/Mexico Mexico’s Justice and Citizen
Security Office direct Management Systems International to implement a process to capture
data and only report individuals as completing the training course who met the attendance
criteria.

Management Decision: USAID/Mexico issued a technical directive to Management Systems
International on August 13, instructing the Contractor to establish a process to capture training
data and only report individuals as completing the training course who met the attendance
criteria. (See attached letter)

As USAID/Mexico has already implemented the recommended action, the recommendation
should be closed upon issuance of the report.

Recommendation 2: We recommend that USAID/Mexico’s Justice and Citizen Security Office
implement a verification process to confirm that the information entered and reported by
Management Systems International in the USAID’s Training Results and Information
Network is accurate.


                                                                                                    11
                                                                                        Appendix II


Management Decision: For the purpose of implementing this recommendation, the Mission
Justice and Citizen Security Office (JACS) shall create and implement a protocol outlining steps
to periodically verify that the information entered in TRAINET and reported in Quarterly and/or
annual reports by Management Systems International, is accurate.

This protocol shall be incorporated into the work objectives of program managers for the current
and follow-on justice sector reform portfolio and to those of the JACS Monitoring and
Evaluation Specialist. The protocol will outline specific measures to conduct cross-checks every
three months in order to verify that the implementing partner’s entries in TRAINET are
consistent with their quarterly reports and with the existing training documentation. The
protocol will also require that the managers observe at least one complete training course per
year, or one partial training course per quarter, as an additional quality control. This protocol
will also contain corrective measures to be taken when inconsistencies are found.

Target Closure Date: November 30th, 2012.

Recommendation 3: We recommend that USAID/Mexico’s Justice and Citizen Security Office
work with Management Systems International to determine how the training database will be
retained at the end of the program and what training information could be provided to state
officials for their records.

Management Decision: The steps for database retention identified by the Mission include: 1)
the identification of a directory in the Mission’s server where the database will be installed; 2)
the training of the JACS Monitoring and Evaluation specialist to use and maintain the database
and; 3) incorporation of the Mission’s IT system manager to assist with database maintenance.
Management Sciences International will assist with the induction of the JACS Monitoring and
Evaluation Specialist to the management of the database.

USAID approved a plan submitted by Management Sciences International to provide training
information to state officials for their records. The plan includes preparing an Excel file with
multiple tabs, containing trainee data grouped by state and title, and details of courses taken and
training hours completed. This information will be sent to the official Training Units of Mexican
State Attorney General and Public Defender’s Offices, as well as the state Judiciaries,
Secretariats of Public Safety, Alterative Justice Centers and Victim’s Assistance units as
appropriate, on a semi-annual basis. This process, as well as the state officials’ receipt of the
information, will be documented in the respective Quarterly report

By taking the measures mentioned above, the Mission has complied with the intent of the
recommendation above by determining how the training data will be retained and what
information will be provided to state officials. Therefore, we suggest that this recommendation
be closed upon the issuance of the report.




                                                                                                  12
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
